No. 19-114

31tt Mbe

'uprente Court of tbe Multeti Otatefi
DOUGLAS F. CIOLEK,
Petitioner,
v.
STATE OF NEW JERSEY,
Respondent.

•
On Petition For Writ Of Certiorari
To The Superior Court Of New Jersey
Appellate Division
•
REPLY BRIEF FOR PETITIONER
•
DOUGLAS F. CIOLEK
Pro se Petitioner and
Counsel of Record
4 North Ridge Road
Denville, New Jersey 07834
973-206-2500
dciolek@rrjhlaw.com
August 28, 2019

COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

RErP:IVED
SEP - 3 2019
OFFICE OF THE
CLERK
SUPREME COURT U.S.

1
ARGUMENT
Respondent states that "resolution of whether
Heller extends beyond the home is not necessary for
this Court to address in order to reach the issue upon
which petitioner seeks review." BIO.15. Not so. Based
on the issue presented, the Court must first decide if
the Second Amendment applies outside the home, and
if so, then decide whether the justifiable need statute
violates Petitioner's Second Amendment rights.
Second, Respondent presumes that levels of scrutiny must apply, BIO.15-16, and devotes much of its
brief advocating for intermediate scrutiny. Id. at 16-17,
22-30. It may have presumed too much. District of Columbia v. Heller, 554 U.S. 570 (2008) does not require,
let alone suggest that such tiers of review are applicable. It did not perform the necessary assessments under strict or intermediate scrutiny. In fact, it rejected
them. Id. at 634. Moreover, it also rejected the functional equivalent of intermediate scrutiny advocated
by the dissent. Id. at 634-35, 689-90.
Indeed, McDonald v. City of Chicago, 561 U.S. 742
(2010) expressly rejected judicial assessment of the
"costs and benefits of firearms restrictions" and also
stated that courts applying the Second Amendment
would not have to engage in "difficult empirical judgments" about the efficacy of particular gun regulations.
Id. at 790-91.
Furthermore, it is already known that at least one
Justice would likely reject any such balancing test for
a standard predicated on text, history and tradition.

2
Heller v. District of Columbia, 670 F.3d 1244, 1282
(D.C. Cir. 2011) (Kavanaugh, J., dissenting). What the
standard really is, and how it is to be applied is yet
another important reason to grant this Petition. The
fact that the majority of courts employ some type of
intermediate scrutiny in assessing Second Amendment rights outside the home — and are doing so erroneously if public carriage is a core Second Amendment
right — only underscores the importance of reviewing
this matter.
Third, Respondent cites Peruta v. County of San
Diego, 824 F.3d 919 (9th Cir. 2016) and Robinson v.
Baldwin, 165 U.S. 275, 281-82 (1897) for the proposition that concealed carry prohibitions do not violate
the Second Amendment. The glaring error with Respondent's argument is that the pertinent citation in
Robinson only relates to concealed carriage.' Petitioner
was denied the right to open carriage as well, and argued this in his summary judgment motion and on
appeal. Respondent's statutory scheme does not differentiate between them and it is also a crime to open
carry in public without a permit. N.J. STAT. ANN.
§ 2C:39-5(b); Drake v. Filko, 724 F.3d 426, 433, 440 (3d
Cir. 2013). Based on Petitioner's review of Heller and
its review of nineteenth century case law, a statute
that allows open but denies concealed public carriage
aforementioned citation in Robinson is not the holding
but dicta, and there is some doubt about its validity. See Craipo,
Betty J., Judicial Toleration for Negative Externalities of Bearing
Arms in Public: Addressing the Second Amendment Circuit Split,
14 SETON HALL CIR. REV. 209, 221 (2018).
1 The

3
does not offend the Second Amendment. But a statute
like New Jersey's, which precludes both open and concealed public carriage is unconstitutional. 554 U.S. at
629 (citations omitted).
In the preceding paragraph, Petitioner asserted
that Respondent's statute "precludes" public carriage.
Notwithstanding Respondent's argument that on paper, a very tiny privileged group may be able to obtain
a carry permit, this statutory scheme results in a de
facto ban for the ordinary person. Petitioner has used
the phrase "ordinary person" in relation to public carriage rights because Wrenn v. District of Columbia, 864
F.3d 650 (D.C. Cir. 2017) held that this right applies to
"responsible, law abiding citizens", id. at 664, without
additional qualifications, which is consistent with a
natural right of self-defense. Young v. Hawaii, 896 F.3d
1044 (9th Cir. 2018) noted that individual rights such
as the Second Amendment apply to the "ordinary citizen". Id. at 1071. Indeed, in an interview, Chief Justice
Roberts stated that "[My ensuring that no one in government has too much power, the Constitution helps
protect ordinary Americans every day against abuse of
power by those in authority". www.scholastic.com/browse/
article.jsp?id=7479 (last accessed 8/17/19) (emphasis
added). In short, the Second Amendment applies to
ordinary citizens, not a special subset of people. Respondent's justifiable need statute unconstitutionally
embraces the latter and excludes the former.
Fourth, Respondent also attempts to differentiate
its licensing scheme from the District of Columbia's.
BIO.21. That is no more than a distinction without a

4
difference. Compare D.C. CODE § 7-2509.11(1)(A) with
N.J. STAT. ANN. § 2C:58-4(c). Minor legal distinctions
aside, just like the citizens in the District of Columbia
prior to Wrenn, the ordinary New Jersey citizen can
never, ever engage in public carry for general selfdefense due to the justifiable need requirement.
Last, it is inconceivable that Petitioner's appeal
is moot. The minor amendment referred to by Respondent is irrelevant because as it admits, during both
Petitioner's initial application and the appellate process, justifiable need was a necessary requirement for
a carry permit. BIO.12-13. The purpose of the amendment was simply to codify the definition of justifiable
need that was already contained in N.J. ADMIN. CODE
13:54-2.4(d). This is noted in Assembly Bill No. 2758
cited by Respondent. See also In re Wheeler, 81 A.3d
728, 739 (N.J. Super. Ct. App. Div. 2013) (indicating
that N.J. ADMIN. CODE 13:54-2.4(d) initially codified
the case law definition of "justifiable need"). If the
Court accepted Respondent's argument, any "defendant could moot a case by" amending "the challenged
statute and replacing it with one that differs only in
some insignificant respect". Northeastern Fla. Chapter
of Associated Gen. Contractors of Am. v. City of Jacksonville, 508 U.S. 656, 662 (1993). Such actions do not
moot a case or affect standing. Ibid.
♦

5
CONCLUSION
The Court should grant the writ.
August 28, 2019

Respectfully submitted,
DOUGLAS F. CIOLEK
Pro se Petitioner and
Counsel of Record
4 North Ridge Road
Denville, New Jersey 07834
973-206-2500
dciolek@rrjhlaw.com

